KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

November 12, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Ysleta del Sur Pueblo, et al. v. Texas, No. 20-493

Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4 and the Court’s Order of March 19,
2020, Respondent, the State of Texas, respectfully requests an extension of the time
for filing its response to the petition for a writ of certiorari in this matter.
Petitioners filed their petition for a writ of certiorari on October 9, 2020, and it
was docketed on October 15. The Court requested a response on November 10,
creating a deadline for Respondents’ brief in opposition of December 10, 2020.
Respondents request a 30-day extension of that deadline, creating a new filing date
of January 11, 2021.1
The extension is necessary because lead counsel for Respondent was not
personally involved in the matter before the Fifth Circuit and has had numerous
briefing and argument obligations since Petitioners filed their petition for certiorari
on October 9. Lead counsel’s caseload has significantly increased due to COVID-19related litigation involving the State of Texas and its officials and, more recently,
multiple emergency election-law matters that have required expedited briefing and
argument. Lead counsel’s obligations include:
Thirty days from December 10, 2020 is January 9, 2021, which is a Saturday; thus, the
operative deadline would be Monday, January 11.
1

Pos t Of fic e Bo x 125 48 , Aus ti n, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor ne y ge ne r a l. gov

Page 2
• November 10 – Oral argument in California v. Texas, Nos. 19-840, 19-1019
(U.S.);
• November 23 – Brief in opposition due in Texas Democratic Party v. Abbott,
No. 17-51060 (U.S.);
• December 1 – Brief in opposition due in City of Austin v. Paxton, No. 19-1441
(U.S.);
• December 2 – En banc supplemental brief due in Whole Woman’s Health v.
Paxton, No. 17-51060 (5th Cir.); and
• December 9 – Opening brief on the merits due in Richardson v. Hughs, No.
20-50774 (5th Cir.).
For the foregoing reasons, Respondent respectfully requests a 30-day extension
of the deadline to file its response to the petition for a writ of certiorari, creating a
new deadline of January 11, 2021.
Counsel to Petitioners confirmed that Petitioners are unopposed to the requested
extension.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc: Brant C. Martin (via e-mail)

Pos t Of fic e Bo x 125 48 , Aus ti n, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor ne y ge ne r a l. gov

